                                                                 Issue Date
                                                                 February 14, 2007
                                                                 Audit Report Number
                                                                 2007-LA-1005




TO:       Dominique Blom, Deputy Assistant Secretary, Office of Public Housing
            Investments, PI



FROM:     Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: Oakland Housing Authority, Oakland, California, Did Not Comply with
           Procurement and Contracting Requirements


                                  HIGHLIGHTS

 What We Audited and Why

            We audited Oakland Housing Authority’s (Authority) procurement and
            contracting activities. We initiated the audit based on a citizen’s complaint. Our
            objective was to determine whether the Authority’s procurement and contracting
            practices were in compliance with federal requirements.

 What We Found


            The Authority did not follow HUD’s procurement requirements and its own
            procurement policy when it awarded, and renewed a general counsel services
            contract to the firm Goldfarb & Lipman. The firm’s duties under this contract, as
            requested by the Authority, can include oversight of the Authority’s procurement of
            legal services. While the firm served as the Authority’s general counsel, the scope
            of a prior contract with Goldfarb & Lipman for Hope VI development legal services
            contract was improperly expanded and the contract amount increased by 115
            percent.
           The Authority also did not properly account for payments made to Goldfarb &
           Lipman because the Authority failed to establish an adequate system to monitor
           contract payments. The Authority paid Goldfarb & Lipman a total of $1,125,951
           for services provided under the two contracts, however, we were unable to
           accurately determine which portion of the total was for services provided under
           each contract.

           In addition, the Authority did not follow federal requirements or its own policies
           and procedures to obtain competitive prices when it procured eviction legal
           services from 2002 to 2006. As a result, the Authority made unsupported and
           excessive payments for these services.

What We Recommend


           We recommend that HUD’s Deputy Assistant Secretary of Public Housing
           Investments require the Authority to provide adequate support that rates and
           payments under the general counsel and Hope VI development legal services
           contracts were reasonable, or reimburse its federally funded program accounts
           with funds not obtained from other federal programs. We also recommend that
           HUD require the Authority to ensure all future procurement actions are processed
           through its procurement department and are performed in accordance with
           applicable requirements.

           We further recommend that HUD’s Deputy Assistant Secretary of Public Housing
           Investments require the Authority to provide adequate support that amounts paid
           for eviction legal services were reasonable, or reimburse the Low Rent program
           from nonfederal funds.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided our discussion draft audit report to the Authority on December 28,
           2006, and held an exit conference on January 10, 2007. The Authority provided
           written comments on January 26, 2007. The Authority generally disagreed with
           our report findings.

           The complete text of the auditee’s written response, along with our evaluation of
           that response, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                             4

Results of Audit
      Finding 1: The Authority Did Not Follow Applicable Requirements to Procure      5
                 Legal Services
      Finding 2: The Authority Did Not Properly Account for Expenditures Related to   9
                 its General Counsel and Hope VI Legal Service Contracts
      Finding 3: The Authority Did Not Follow Procurement Requirements to Obtain      11
                 Competitive Prices for Eviction Legal Services

Scope and Methodology                                                                 15

Internal Controls                                                                     16

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                  17
   B. Auditee Comments and OIG’s Evaluation                                           18
   C. Federal Requirements                                                            31




                                            3
                     BACKGROUND AND OBJECTIVES


The Oakland Housing Authority (Authority) was established on April 28, 1938, under the laws
of the State of California. The Authority is responsible for administering various low-income
housing programs provided through the United States Housing Act of 1937. The Authority is
governed by a seven-member Board of Commissioners (Board) appointed by the mayor of the
City of Oakland. The Board establishes policies and appoints the Executive Director to
implement these policies. The Executive Director serves as the Contracting Officer, and is
authorized to enter into contracts on behalf of the Authority. Under the direction of the
Executive Director, the Authority’s department of Contract Compliance and General Services
handles all procurement activities.

On March 31, 2004, the Authority entered into HUD’s Moving-to-Work demonstration program.
Through its Moving-to-Work Agreement with HUD, the Authority proposed to use an alternative
procurement system that would implement certain specific changes to the existing federal
procurement requirements.

The OIG last performed a limited review on the Authority’s procurement for a rehabilitation
project in 2002 (Audit Memorandum Report Number 2002-SF-1002). The review found the
Authority had expanded the scope of a $467,500 roof replacement contract into a comprehensive
modernization project costing nearly $3 million without following Federal requirements. The
report identified $105,201 of questionable costs and problems with the quality of the work.
HUD closed the recommendations in 2003, based on corrective actions taken by the Authority.

We received a referral of a hotline complaint concerning inappropriate procurement and
contracting practices at the Authority. Our objective was to determine whether the Authority’s
procurement and contracting practices were in compliance with federal requirements.




                                               4
                               RESULTS OF AUDIT

Finding 1: The Authority Did Not Follow Applicable Requirements to
           Procure Legal Services
The Authority did not follow federal requirements or its own policies and procedures when it
contracted with the firm Goldfarb & Lipman for general counsel services. Specifically, the
Authority did not (1) complete an independent cost estimate or maintain a cost analysis, (2)
ensure a fair and impartial competitive procurement, and (3) retain records pertinent to the
procurement. Further, the Authority improperly renewed and increased the amounts paid for the
general counsel services and Hope VI development legal services contracts with Goldfarb &
Lipman. This occurred because management assigned non-procurement personnel to manage the
contracting process. As a result, the Authority could not show that competition was fair and
impartial.



 The Authority Awarded a
 General Counsel Contract to
 Goldfarb & Lipman


              On December 4, 2003, the Authority issued a request for proposals to obtain general
              counsel services. In response, four law firms submitted proposals to the Authority.
              The proposals were evaluated and given scores by a panel consisting of the
              Authority’s Executive Director, Deputy Executive Director, Director of Human
              Resources, and Director of Development, and the General Counsel of another
              housing agency. The Authority’s Board of Directors interviewed the two highest
              scoring firms, and, in April 2004, the Authority entered into a one-year general
              counsel services contract with the law firm of Goldfarb & Lipman. The Authority
              extended this contract for another one-year period in April 2005, and for an
              additional 39 months in April 2006. The total contract amount was $660,000 for the
              first three years; the amount for the final 24 months has not been determined.

 The Authority Failed to
 Complete an Independent Cost
 Estimate and Did Not Maintain
 a Cost Analysis


              Regulations at 24 CFR [Code of Federal Regulations] 85.36 require an
              independent cost estimate for every procurement action, as well as a cost analysis
              for every professional offer. However, the Authority did not prepare an
              independent cost estimate and did not have a cost analysis for the general counsel



                                               5
            contract available for review. The Authority should have had in its procurement
            file a cost estimate before soliciting proposals, and a cost analysis after reviewing
            cost information from prospective contractors. Both are necessary to ensure that
            the final contract price is reasonable.

The Authority Failed to Retain
Records Pertinent to the
Procurement

            According to regulations in 24 CFR 85.36 and HUD Handbook 7460.8, records
            must be maintained in sufficient detail to document the history of each
            procurement. The Authority’s files contained copies of the scoring sheets used by
            the proposal evaluation panel, but did not contain copies of the actual proposals
            submitted by the four firms that responded to the request for proposals. Without
            adequate documentation of the procurement process, the Authority could not
            show the procurement was performed in a fair and impartial manner.


 The Authority Failed to Ensure
 Competitive Procurement Was
 Fair and Impartial


            HUD Handbook 7460.8 requires impartial, consistent, and fair proposal
            evaluation. The Authority’s files for the general counsel service procurement
            contained signed conflict of interest disclosure affidavits for each of the five
            evaluation panel members. The affidavit signed by one member of the panel
            stated that she was a personal friend of a partner of Goldfarb & Lipman, the
            winning bidder. Although it knew that this personal relationship existed, the
            Authority did not remove this person from the evaluation panel. Allowing this
            person to remain on the evaluation panel gives the appearance of bias in the
            evaluation process.


 The Authority Inappropriately
 Renewed and Amended its
 Contracts with Goldfarb &
 Lipman


            The original general counsel services contract contained an option to extend for an
            unspecified period at an unspecified price. Although HUD defines an unpriced
            option as a new procurement, the Authority ignored HUD requirements and chose
            not to conduct a new procurement. Instead, at the end of the original contract term,
            the Authority exercised the unpriced option and renewed the general counsel



                                              6
          contract with Goldfarb & Lipman for one year at $180,000. At the end of the first
          renewal contract term, the Authority extended the general counsel contract with
          Goldfarb & Lipman for three years and three months, even though the first renewal
          contract did not contain an option for an extension. The contract amount for the first
          15 months was $300,000, while the contract amount for the subsequent two years
          remained to be determined.

          In January 2002, the Authority entered into a $386,000 contract with Goldfarb &
          Lipman for development legal services for the Coliseum Gardens Hope VI
          project. In April 2005, while Goldfarb & Lipman continued to serve under
          contract as the Authority’s general counsel, the firm’s Hope VI development legal
          services contract was amended and increased by $445,354 (115 percent). The
          Authority advised that the amendment was needed due to various project
          complications. However, the Authority did not obtain Board approval for the
          amendment as required by its own procurement policy.

          In November 2005, the Hope VI development legal services contract with
          Goldfarb & Lipman for Coliseum Gardens was amended again and increased by
          $25,000. This amendment, which occurred nearly four years into the contract,
          expanded the scope of services to include predevelopment work for the
          Tassafaronga Village project. Tassafaronga Village is not part of Coliseum
          Gardens. When the original contract for Coliseum Gardens was signed in January
          2002, the Authority did not know the scope of work and estimated cost of legal
          services for Tassafaronga Village. In accordance with HUD Handbook 7460.8,
          the Authority cannot continue to amend Goldfarb & Lipman’s existing contract
          indefinitely to include additional work on Tassafaronga Village. Instead, legal
          services for Tassafaronga Village should be acquired through a new procurement
          to ensure fair and open competition.


The Authority’s Procurement
Department Did Not Monitor the
Legal Service Procurements


          The Authority failed to ensure that the contracting for legal services met the
          applicable requirements because management assigned non-procurement staff to
          oversee both the initial contracting process and subsequent contract renewals.
          The Executive office explained that it felt that the Procurement Department did
          not have sufficient expertise in contracting for legal services.




                                            7
Recommendations


        We recommend that HUD’s Deputy Assistant Secretary of Public Housing
        Investments

        1A. Require the Authority to provide documentation to support that Goldfarb &
        Lipman’s rates under the original general counsel contract and subsequent
        renewals were reasonable, or repay unsupported amounts to its low-rent program
        from nonfederal funds.

        1B. Require the Authority to provide support showing the $470,354 increase to
        the Hope VI development legal services contract was reasonable.

        1C. Require the Authority to ensure all future procurement actions are
        performed in accordance with applicable requirements.

        1D. Revise the Authority’s Moving to Work Agreement so that it requires the
        Authority to obtain HUD review and approval of all professional service contracts
        and amendments totaling more than $50,000 in part or aggregate (consulting,
        accounting, legal services, and architect and engineering services) before execution
        for a minimum of one year or until HUD is satisfied the procurements and contracts
        meet federal requirements.




                                          8
Finding 2: The Authority Did Not Properly Account for Expenditures
           Related to its General Counsel and Hope VI Legal Service
           Contracts
The Authority did not properly account for payments made to Goldfarb & Lipman for general
counsel and Hope VI legal services. This occurred because the Authority failed to establish an
adequate system to monitor contract payments. Control over contract payments relied upon the
Authority’s purchase order system and was easily circumvented. As a result, payments to
Goldfarb & Lipman for Hope VI legal services exceeded contracted amounts.



 The Authority Uses Purchase
 Orders to Track Contract
 Payments


              The Authority accounted for contracts in a purchase order system that also
              included non-contracted small purchases. Under normal circumstances, the
              Authority’s procurement department generated the purchase orders for the
              contract limits and the accounting department tracked contractor and vendor
              payments by the purchase orders. The accounting department did not know
              whether payments were made in accordance with the contract terms, as it was
              never provided with copies of contracts. The lack of an effective contract
              monitoring system prevented the Authority from accurately tracking the
              cumulative payments on the Goldfarb & Lipman contracts.

 Controls Over Contract
 Payments Were Circumvented


              Controls over contract payments were circumvented when Authority’s management
              excluded its procurement department from the contract development and renewal
              process for the Goldfarb & Lipman contracts. Since Authority management did not
              inform the procurement department of the first renewal of the general counsel
              contract, a purchase order for this renewal was not created. When the original
              purchase order for the first year of the Goldfarb & Lipman general counsel contract
              was exhausted, the accounting department paid for general counsel invoices by
              charging the payments to Goldfarb & Lipman’s other available purchase order, the
              Hope VI development legal services contract for Coliseum Gardens.




                                               9
          Controls over the contracting for legal services were further circumvented
          whenever the Goldfarb & Lipman purchase orders did not contain sufficient funds
          to cover an invoice. If the accounting department received an approved Goldfarb
          & Lipman invoice but did not have a Goldfarb & Lipman purchase order with
          sufficient funds to charge it to, accounting returned the invoice to the approving
          office. The approving office then issued a requisition request to the Executive
          Office to increase the existing purchase order or issue a new purchase order to
          cover the invoice.

          Consequently, the Authority lost track of its expenditures and the Authority
          overpaid Goldfarb & Lipman for the Hope VI development legal services contract
          for Coliseum Gardens. The original contract amount was $386,000. Through
          various amendments, the contract amount was increased by $470,354 to $856,354
          (see finding 1). However, the Authority’s records show that it paid Goldfarb &
          Lipman invoices, totaling $930,789, that were charged to the Hope VI purchase
          orders, $74,435 more than the amended contract amount.

 Accounting Records for
 Payments to Goldfarb &
 Lipman are Inaccurate


          The Authority spent a total of $1,125,951 for Goldfarb & Lipman’s legal services,
          including general counsel and Hope VI development legal services. Since the
          Authority’s accounting system did not accurately account for payments on
          Goldfarb & Lipman purchase orders, we were unable to determine which portion
          of the total amount paid to Goldfarb & Lipman was for services provided under
          the Hope VI development legal services contract for Coliseum Gardens.


Recommendations


          We recommend that HUD’s Deputy Assistant Secretary of Public Housing
          Investments

          2A. Require the Authority to provide documentation showing that all amounts
          paid to Goldfarb & Lipman ($1,125,951) were adequately supported and were
          made in accordance with the terms of the applicable contract.

          2B. Require the Authority to revise its contract monitoring system to ensure the
          Authority only pays for goods and services in accordance with contract terms.




                                          10
Finding 3: The Authority Did Not Follow Procurement Requirements to
           Obtain Competitive Prices for Eviction Legal Services
The Authority did not follow federal requirements or its own policies and procedures to obtain
competitive prices when it procured for eviction legal services from 2002 to 2006. The
Authority (1) did not use a competitive procurement process for eviction legal services costing
more than $100,000 annually, (2) did not properly justify contracting for payment of different
hourly rates to different law firms for eviction legal services, (3) paid invalid invoices, and (4)
improperly increased an eviction legal services contract by 150 percent over the original amount.
This occurred because Authority management (1) ignored procurement requirements, and (2) did
not establish a system to administer and control payments for these contracts. As a result, the
Authority made unsupported and excessive payments for eviction legal services.



 The Authority’s History of
 Obtaining Eviction Legal
 Services

               The Authority obtained eviction legal services from Oakland’s City Attorney’s
               Office until that office discontinued providing legal services to the Authority in
               May 2002. To compensate, the Authority began paying private law firms to
               provide eviction legal services. From June 2002 to July 2005, the Authority
               purchased these services from two law firms without a contract. In August 2005,
               the Authority contracted for the services with four law firms after conducting a
               competitive procurement. As of July 31, 2006, contracts with the four law firms
               had expired with no option to extend.

 The Authority Used an
 Inappropriate Procurement
 Method

               Contrary to the Code of Federal Regulations and HUD handbook requirements,
               the Authority did not use a competitive procurement process for eviction legal
               services costing more than $100,000 annually. Instead, Authority management
               instructed staff to use small purchase procedures to obtain these services. From
               June 2002 to July 2005, the Authority spent a total of $954,631 for eviction legal
               services from two firms by issuing and amending purchase orders, instead of
               using formal written contracts. During this three year period, the Authority paid
               $447,967 to the firm of Edrington, Schirmer & Murphy (Edrington) and $506,664
               to the Law Office of Charles Ramsey (Ramsey) for these services.

               Since the Authority did not use competitive procurement, there was no assurance
               the Authority acquired the services at a fair and reasonable price. When small


                                                11
          purchase procedures were used, the Authority paid Ramsey at a rate of $200 per
          hour. Additionally, the Authority did not limit (cap) the fee it would pay both
          firms for each different category of eviction case, even though non-contested
          evictions require significantly less legal assistance than evictions requiring
          additional court proceedings.

          The Authority later used a competitive procurement process for the services. This
          led to lowering Ramsey’s hourly rate to $175. Further, in its December 2004
          response to the Authority’s request for proposals, Ramsey proposed and
          contracted for capped fees that were significantly lower than the fees paid to the
          firm up to that time. The lower capped fees could have been enforced for work
          performed by Ramsey to immediately reduce the excessive spending. However,
          the Authority continued to pay the uncapped fees for eviction legal services until
          the contracts became effective in August 2005.

The Authority Did Not
Document Justification for
Different Hourly Rates


          The Authority set up a panel that reviewed and evaluated the four proposals
          received in response to its December 2004 request for proposals for eviction legal
          services. The request for proposals required each firm to propose an hourly
          billing rate and capped fees for specific types of eviction cases. Having
          determined the proposals were responsive and responsible, the Authority’s legal
          counsel, Goldfarb & Lipman, wrote the contracts for all four firms.

          The capped fees were the same among the firms, but the contract hourly rates were
          not. Ramsey and the Law Office of Arnold Evje were contracted at the highest
          hourly rate, at $175 per hour, Edrington contracted at $160 per hour, while the
          Office of Judondi Bolden had the lowest contract hourly rate, $135 per hour. The
          Deputy Executive Director contended that the Authority contracted at different
          hourly rates because of the law firms’ different experience levels. However, there
          was no documentation to show the Authority used the firms’ experience levels to
          conduct any negotiation for the hourly rates. As such, it was unclear whether the
          different hourly rates were reasonable for the various levels of experience.

The Authority Approved and
Paid Invalid Invoices

          During the contract year, the Authority received invoices that were missing
          information necessary for the Authority to monitor and control cost. Instead of
          requiring the law firms to address the problem, the Director of Housing
          Management approved the invalid invoices for payment. As a result, the




                                           12
         Authority paid $289,949 to four law firms without adequate supporting
         documentation.

         To better monitor and control cost of eviction legal services, the contracts
         prohibited the law firms from charging more than the capped fees. For each
         eviction case, the law firms could bill hourly up to the capped fees in the
         corresponding eviction case category as specified in the contracts. All four law
         firms were contracted at the same capped fees.

  Capped Fee for          Capped Fee for Ex       Capped Fee for        Capped Fee for
  Uncontested Actions     Parte Actions           Contested Actions,    Contested Actions,
                                                  Including Bench       Jury Trials
                                                  Trials
          $500                    $350                   $650           $1,300 per day

         The Authority received and approved progress billings that did not classify any of
         the eviction cases into one of the above categories. Without this information, the
         Authority was uncertain as to which capped fee category was applicable for a
         particular case. The problem of not knowing when billings would exceed the
         capped fee was exacerbated by a lack of a cost monitoring system to track the
         cumulative cost for each eviction case.

         As a result, the Authority overpaid for eviction legal services. In one case, the
         eviction proceedings never reached the jury trial stage, and the Authority should
         have paid no more than the $650 capped fee. However, during the contract
         period, the Authority paid $1,675 to Edrington for services provided related to
         this case.

The Authority Improperly
Amended a Contract by Nearly
150 Percent


         The Authority did not properly justify and obtain the required approval for the
         price increase on Edrington’s contract. Edrington’s contract, as well as the other
         three law firms’ contracts, had a not-to-exceed price of $67,500 and required the
         Authority’s Board of Commissioners’ approval for any increase to this contract
         amount. By the end of December 2005 total payments to Edrington under its
         eviction legal services contract were up to the $67,500 limit. This situation
         occurred because the Authority did not allocate eviction cases to the law firms
         evenly and did not monitor the accumulated contract costs. The Authority
         assigned most of the eviction cases to Edrington and allowed Edrington’s invoices
         and payments to accumulate beyond the contract limit.

         In order to continue paying invoices for eviction legal services to Edrington, the
         Authority’s Executive Director approved a purchase requisition in March 2006



                                          13
          that effectively raised the contract limit by an additional $100,000. By this time,
          the payments made under the contract for eviction legal services with each of the
          other three firms were less than 50 percent of the $67,500 contract limit. The
          addition to the payment limit for Edrington occurred without a written contract
          amendment, without the Board of Commissioners approval, and without proper
          justification.

          The Authority management could not justify the uneven workload assigned to the
          law firms. Originally, the Authority contended that by contracting with more than
          one firm, it would be able to allocate the workload and better control costs. The
          Authority’s Deputy Executive Director attributed the problem to its former
          Housing Management Director for not rotating the work between firms.
          However, her explanation was unfounded because the former Housing
          Management Director resigned approximately one month after the contracts
          became effective. The former Housing Management Director could not have
          been able to assign all the eviction cases and exhaust Edrington’s contract amount
          in one month’s time.


Recommendations


          We recommend that HUD’s Deputy Assistant Secretary of Public Housing
          Investments

          3A. Require the Authority to provide documentation to support that the
          $954,631 paid for eviction legal services between June 1, 2002 and July 31, 2005
          was reasonable, or repay its low-rent program from nonfederal funds

          3B. Require the Authority to provide support to show the $289,949 paid for
          eviction legal service between August 1, 2005 and June 2006 was reasonable and
          was paid in accordance with contract terms, or repay unsupported amounts to its
          low-rent program from nonfederal funds.

          3C. Require the Authority to issue a new Request for Proposal for eviction legal
          services to ensure it obtains competitive prices for the services.




                                           14
                         SCOPE AND METHODOLOGY

We conducted our audit at the Authority’s offices in Oakland, California from April to October
2006. To accomplish our objective, we interviewed the Authority’s management and relevant
staff, the Authority’s former Housing Management Director, Goldfarb & Lipman attorneys, and
officials from HUD’s San Francisco, California, and Washington, D.C. offices.

To determine whether the Authority’s procurement and contracting activities were performed in
compliance with HUD requirements, we reviewed

•      The Authority’s Moving to Work Agreement;
•      Code of Federal Regulations and HUD handbook requirements for procurement;
•      The Authority’s procurement policies and procedures;
•      The Authority’s board minutes;
•      The Authority’s procurement contracts; and
•      The Authority’s accounting records for disbursements.

We also obtained a legal opinion from HUD’s Office of General Counsel to determine whether
the Authority’s participation in the Moving to Work program affected the applicability of
existing federal procurement requirements. HUD’s Office of General Counsel reassured us that,
under the Moving to Work Agreement, procurement requirements established in 24 CFR 85.36,
HUD Handbook 7480.8 REV-1, and the Authority’s procurement policies and procedures remain
applicable. The only exception is that the Authority has the benefit of self-certification for eight
specific items, in which the handbook normally requires prior HUD approval (see Appendix C).

Our review generally covered the period from July 1, 2003, through June 30, 2006. This period was
adjusted as necessary. We performed our review in accordance with generally accepted
government auditing standards.




                                                15
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Policies and procedures that management has in place to reasonably ensure
                      procurement contracts were obtained and administered in accordance with
                      applicable requirements.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

                      •      The Authority management did not establish controls that would
                             reasonably ensure procurement contracts were obtained with fair
                             and open competition (see findings 1, 2, and 3).

                      •      The Authority lacked adequate controls to ensure program funds
                             were used in compliance contract terms (see findings 1, 2, and 3).




                                               16
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                           Recommendation         Unsupported 1/
                               number
                                   2A                 $1,125,951
                                   3A                   $954,631
                                   3B                   $289,949



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.




                                            17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1


Comment 2




                         18
Comment 3




Comment 4




Comment 5




Comment 6




            19
Comment 7




            20
Comment 8




Comment 9




            21
Comment 10




Comment 11




             22
Comment 12




Comment 13




             23
Comment 14




Comment 15




Comment 16




             24
Comment 17




Comment 18




Comment 19




Comment 20




             25
26
                         OIG Evaluation of Auditee Comments

Comment 1   We did not intend for the Authority to centralize its procurement functions.
            Accordingly, we have revised our recommendation for HUD’s Deputy Assistant
            Secretary of Public Housing Investments to require the Authority to ensure all
            future procurement actions are performed in accordance with applicable
            requirements.

Comment 2   We disagree. We explained the basis of our calculations and provided the sources
            of information in response to the Authority staff’s inquiries. See Comment 14.

Comment 3   The Authority could not show us the analysis it performed to estimate its annual
            cost for general counsel services. The only supporting documentation the
            Authority could provide was a quote from the request for proposals for general
            counsel services that read “The Authority anticipates that it annually spends
            approximately $150,000 in legal fees for general counsel services and related
            legal advice.” This quote could not be considered a cost estimate calculation.

Comment 4   Extensive analysis of proposed labor rates may be waived if the Authority
            received adequate price competition. However, the Authority could not show it
            received adequate price competition. The Authority did not retain any proposals
            submitted by firms that responded to the request for proposals for general counsel
            services. Without the proposals, we do not know whether the proposed rates were
            competitive.

Comment 5   Based on additional review of the board minutes, we revised the report to state
            that the cost analysis was not available.

Comment 6   The Authority needs to retain records that are pertinent to each procurement.
            Centralized filing of all procurement files and contracts would not resolve all
            elements of this finding. The Authority needs to ensure procurements are
            performed in a fair, consistent, and impartial manner, and contracts are amended
            and renewed in compliance with applicable requirements.

Comment 7   The proposal evaluation should be impartial, consistent, and fair. HUD requires
            this objectivity to be readily apparent upon review. Allowing a personal friend of
            a partner of Goldfarb & Lipman, the winning bidder, to serve on the evaluation
            panel gave the appearance of favoritism toward the firm.

Comment 8   The original general counsel contract did not specify a price or a finite period for
            the option. Specifically, the section in which the contract addressed the option
            stated, “the contract may continue for a term that is mutually agreed to by the
            Authority and Attorney.” HUD defined this to be an unpriced option, which
            required the Authority to perform a new procurement.




                                             27
Comment 9     In January 2002, the Board approved a $386,000 contract with Goldfarb &
              Lipman for Hope VI development legal services for Coliseum Gardens. An
              amendment increasing the contract amount by $445,354 (115 percent) was a
              material change. However, the Authority did not obtain Board approval for this
              amendment.

Comment 10 The quote cited was insufficient to relieve the Authority of its responsibility to
           conduct a new procurement to obtain legal services for Tassafaronga Village.
           The request for proposals, from which the quote was taken, solicited Hope VI
           development legal services for Coliseum Gardens. There was no indication that
           HUD approved the language in the Authority’s request for proposals. The
           Authority’s quote from its request for proposals suggested the contract may
           contain an unpriced option at best. In fact, when the Authority awarded the legal
           services contract for Coliseum Gardens, it did not know the scope of work or the
           cost of legal services associated with developing Tassafaronga Village.

              The Authority did not mention at any time during the review or at the exit
              conference that it consulted with Abt Associates for advice on the language in the
              referenced request for proposals. In addition, Abt Associate, according to its
              website, is a for-profit company and should not to be confused as a component of
              HUD.

Comment 11 We acknowledge that the procurement department participated in the process for
           issuing requests for proposals for legal services. However, management did not
           include the procurement department during the initial contracting and subsequent
           contract renewal processes. Specifically, non-procurement staff oversaw the
           proposal evaluation for general counsel services and developed the general
           counsel contract. Moreover, management notified the procurement department
           after the general counsel contract was renewed.

Comment 12 We disagree that the Authority had an adequate system for monitoring contracts.
           As stated in our report, the Authority made payments in excess of contract
           amounts. Furthermore, the Authority acknowledged it needed to make additional
           adjusting journal entries to correct improper charges (see Comment 9).

              The Authority can present its newly proposed contract monitoring system to HUD
              for review and approval during the audit resolution process.

Comment 13 We acknowledge that the accounting staff made some mistakes in charging
           Goldfarb & Lipman general counsel invoices against Goldfarb & Lipman’s Hope
           VI development legal services contract for Coliseum Gardens, and vice versa.
           After the exit conference, we reviewed the adjusting journal entries the Authority
           made to correct the mistakes. Although the adjustments made generally appeared
           appropriate, the accounting department reported that it still needed to make
           additional adjusting journal entries to correct charges that dated as far back as
           April 2004 to reverse improper charges. As such, the Authority’s records



                                              28
              continued to show the Authority overpaid for Goldfarb & Lipman’s Hope VI
              development legal services contract. The Authority must identify all improper
              charges and finish making all the appropriate adjustments to correct the
              overpayments on Goldfarb & Lipman’s Hope VI development legal services
              contract.

                      While some improper charges could be mistakes, other improper payments
              were made because the Authority circumvented the controls over contract
              payments. For instance, the Authority could not explain how it managed to pay
              for an entire year’s worth of general counsel expense during the first renewal
              contract period when it did not create a purchase order to allow for any contract
              payments. As stated in the report, if the accounting department could not find an
              existing Goldfarb & Lipman purchase order with a sufficient balance to cover an
              invoice, the Executive Office approved requests to increase the existing purchase
              order or to issue a new purchase order to allow for the payment.

Comment 14 We disagree. During the audit, we responded to all of the Authority’s requests
           regarding the differences between OIG’s amounts and what the Authority
           believed was correct. Specifically, the Finance Director asked how OIG arrived
           at the $470,354 in amendments to the Hope VI legal services contract. He stated
           that he could not arrive at the same dollar amount by adding up the purchase
           orders in the accounting system. We told him we calculated the $470,354 in
           amendments based on the contract amendments provided by the Authority’s
           development department. We also informed the Finance Director that the reason
           for the discrepancy between the contract amendments and the purchase orders
           created for those amendments could be attributed to the Authority’s practice of
           not forwarding copies of contracts and amendments to the finance department.

              The Finance Director also inquired as to what documentation the OIG reviewed to
              arrive at the $954,631 spent for eviction legal services from June 1, 2002 to July
              31, 2005. We told him this information was obtained from the Authority’s check
              register, files from the procurement department, and information obtained during
              meetings with the Deputy Executive Director. Specifically, we arrived at the
              dollar amount by totaling all disbursements made to Edrington and Ramsey
              during the period when the Authority used small purchase procedures to obtain
              eviction legal services.

Comment 15 Although the Authority’s independent auditor issued reports on the Authority’s
           internal controls, those reports would not necessarily disclose all matters in the
           internal controls that might be reportable conditions and material weaknesses.

Comment 16 A request for proposals is not the same document as a written contract. During
           our review, the Deputy Executive Director told us the Authority had been using
           small purchase procedures to obtain eviction legal services until it signed
           contracts in August 2005. Therefore, the Authority did not have written contracts
           for eviction legal services covering the period from June 2002 through July 2005.



                                              29
Comment 17 The competitive procurement process requires more than the issuance of a request
           for proposals. The Authority did not award eviction legal services contracts
           during the period from June 2002 through July 2005. The Deputy Executive
           Director said instead, the Authority purchased eviction legal services using small
           purchase procedures.

Comment 18 Because firms were contracted to provide the same types of eviction legal service,
           our concern was whether the different hourly rates were fair and reasonable.
           Based on the Authority’s records, we were unable to make this determination.
           The Authority did not have documentation to show it performed a cost analysis
           using the California Bar Association’s rate ranges. Contrary to the Authority’s
           examples explaining the reasons for different hourly rates, Ramsey, who was also
           a one-attorney firm, charged the highest hourly rate.

Comment 19 The problem we found was not limited to one case. None of the invoices
           classified cases into a capped fee category. The Authority was unable to
           determine which capped fee category was appropriate for the cases billed. The
           Authority was also not tracking the cumulative cost for any eviction cases. As a
           result, the Authority overpaid for eviction legal services. During the audit
           resolution process, the Authority can provide HUD with documentation it may
           have to support its claim that payments made were reasonable and in accordance
           with contract terms, and repay any amounts that cannot be supported.

Comment 20 We acknowledge the Authority is changing its approach for assigning eviction
           cases to the law firms. However, we still contend that the Authority needs to
           implement effective controls to ensure that total payments made do not exceed
           contract limits and that contract amendments are executed in writing and with
           proper approvals.




                                             30
                                       APPENDIXES

Appendix C

                           FEDERAL REQUIREMENTS
Procurement and Contracting Generally

Regulations at 24 CFR [Code of Federal Regulations] 85.36(b) require a housing authority to use
its own procurement procedures, which reflect applicable state and local laws and regulations,
provided that the procurements conform to applicable federal law.

The Authority’s Procurement Policy manual requires that all procurement activities are
performed in accordance with the federal procurement requirements of 24 CFR 85.36, and
applicable state and local laws.

Requirements for Selecting a Procurement Method

Regulations at 24 CFR 85.36 (d)(1) specifies that small purchase procedures are those relatively
simple and informal procurement methods for securing services, supplies, or other property that
do not cost more than the simplified acquisition threshold fixed at 41 U.S.C 403(11) (currently
set at $100,000). While the sealed bid method is the preferred method for procuring
construction, the competitive proposal method is generally used when conditions are not
appropriate for the use of sealed bids.

HUD Handbook 7460.8, REV-1, “Procurement Handbook for Public Housing Agencies and
Indian Housing Authorities,” chapter 4-3, also requires the use of sealed bidding or competitive
proposal procedures rather than small purchase procedures if the supplies or services needed is
estimated to go over the simplified acquisition threshold.

The Authority’s procurement policy, section IV, explains that for purchases and contracts within
the range of $2,500 to $100,000, the agreements and orders shall not exceed a period of two
years. The dollar value of any single agreement or order shall not exceed $100,000 on an annual
basis. If a review of an individual supply or service, at any time, indicates annual expenditures
in excess of $100,000, a formal bid will be invited to procure the supply or service.

Requirements for an Independent Cost Estimate and a Cost Analysis

Regulations at 24 CFR 85.36 (f)(1) require grantees to make independent estimates before
receiving bids or proposals. A cost analysis must be performed when the offeror is required to
submit the elements of his estimated cost, e.g., under professional, consulting, and architectural
engineering services contracts.

HUD Handbook 7460.8, REV-1, chapter 3-15, also states that an independent cost estimate of
every procurement must be made before soliciting bids or proposals. Such an estimate is needed



                                                31
in preparing for the procurement, since the dollar amount may dictate the method of procurement
that can be used (such as small purchases versus sealed bidding, etc.). Further, the independent
cost estimate is considered confidential information which shall not be disclosed outside the
housing authority. The reason for this protection is that contractors often bid the same as or less
than the independent cost estimate, if known, as a means of securing a contract award without
consideration of the true cost of a job. The preferred approach to procurement is to have each
prospective contractor conduct an analysis and develop the offer independently, considering only
what the housing authority’s stated needs are, without simply relying on an estimate of what the
housing authority is able to afford.

The Authority’s procurement policy, section V, requires a cost or price analysis be performed for
all procurement actions including contract modifications. It further states that a cost analysis
shall be performed for:
a.      Procurement based on noncompetitive proposals including contract modification (change
orders).
b.      Procurement when only one offer is received.
c.      Procurement of professional, consulting, or architect/engineer services.

Requirements for Record Retention

Regulations in 24 CFR 85.36 (b)(9) and HUD Handbook 7460.8, REV-1, chapters 2-1 and 3-12,
stipulate that the housing authority will maintain records sufficient to detail the significant
history of a procurement. These records will include, but are not necessarily limited to the
following: rationale for the method of procurement, selection of contract type, contractor
selection or rejection, and the basis for the contract price.

The Authority’s procurement policy, section III, requires the following:
C.      All contracts and modifications shall be in writing, clearly specifying the desired
supplies, services, or construction. All awards and proposed awards shall be supported by
sufficient documentation regarding the history of the procurement, including as a minimum the
method of procurement chosen, the selection of the contract type, the rationale for selecting or
rejecting offers, and the basis for the contract price.
D.      The Authority shall comply with applicable HUD review requirements and thresholds.

Requirements for Proposal Evaluation

HUD Handbook 7460.8, REV-1, chapter 4-23, states that the proposal evaluation should be
impartial, consistent, and fair. This objectivity must be readily apparent upon review.

The same chapter further states, for the purpose of conducting negotiations, proposals should be
initially classified as acceptable, potentially acceptable, or unacceptable. The competitive range
decision should take into account the evaluation of both technical and cost/price proposals, the
evaluation report, and the cost or price analysis, so that each proposal is examined in its entirety
and the relative rankings of each offeror are compared. Offerors whose proposals are
unacceptable should be so notified promptly by letter with the appropriate rationale for such
action; such offers are excluded from the remainder of the procurement. A proposal may be



                                                 32
determined unacceptable on technical grounds, if the price is clearly excessive compared to other
acceptable offers, or if the offer or is non-responsible.

Requirements for Contract Award

The Authority’s procurement policy, section IV, requires contract awards in excess of $50,000
be approved by the Commission.

Requirements for Contract Options

HUD Handbook 7460.8, REV-1, chapter 6-2, acknowledges that awarding a contract with
options gives the housing authority a continued source of supply under contract, at known prices.
An option is defined as a unilateral right of the housing authority to order additional supplies,
services, or construction at the prices specified in the contract. A clause which allows an option
to be exercised only at the contractor’s discretion is not an option; instead, this is tantamount to a
new procurement, and such clauses shall not be used.

The same chapter stipulates that an option may only be exercised if the basic contract stated a
price for the supplies, services, or construction. An unpriced option, like a bilateral option, is
considered a new procurement. A further limitation is that options may not continue
indefinitely; there must be a finite period for the contract, including all options, and a specific
limit on the total quantity to be purchased by option.

The handbook further specifies that before exercising an option, the housing authority should
document the contract file with a written determination, which should include the following:

1.      Funds availability;
2.      Statement as to continuing need for the item;
3.      Indication as to whether the option was included and evaluated as part of the basic
contract;
4.      Review of market prices to indicate whether the option is still economical for the housing
authority; and
5.      Any other factors (such as time or disruption to the housing authority’s operations)
supporting the housing authority’s decision to exercise the option.

The Authority’s procurement policy, section VII, states options for additional quantities or
performance periods may be included in the contract provided that procurement requirements are
satisfied.

Requirements for Contract Provisions

Regulations in 24 CFR 85.36 (i) stipulates that a grantee’s contracts must contain the following
provisions:
(1)    Administrative, contractual, or legal remedies in instances where contractors violate or
breach contract terms, and provide for such sanctions and penalties as may be appropriate.
(Contracts more than the simplified acquisition threshold)



                                                  33
(10) Access by the grantee, the subgrantee, the Federal grantor agency, the Comptroller
General of the United States, or any of their duly authorized representatives to any books,
documents, papers, and records of the contractor which are directly pertinent to that specific
contract for the purpose of making audit, examination, excerpts, and transcriptions.
(11) Retention of all required records for three years after grantees or subgrantees make final
payments and all other pending matters are closed.

The Authority’s procurement policy, section VII, states that all contracts shall include any
clauses required by Federal statutes, executive orders, and their implementing regulations.

Requirements for Contract Amendments or Modifications

Regulations at 24 CFR 85.36(f)(1) require grantees to perform a cost or price analysis in
connection with every procurement action including contract modifications. It further states that
a cost analysis will be necessary when adequate price competition is lacking, and for sole source
procurements, including contract modifications or change orders, unless price reasonableness can
be established on the basis of a catalog or market price of a commercial product sold in
substantial quantities to the general public or based on prices set by law or regulation. A price
analysis will be used in all other instances to determine the reasonableness of the proposed
contract price.

HUD Handbook 7460.8, REV-1, chapter 4-33, states if the housing authority is negotiating a
modification (including change orders) to any contract (even if the basic contract was awarded
competitively) which changes the scope of work previously authorized and impacts the price or
estimated cost, it must use cost analysis and the principles in HUD Handbook 2210.18 to arrive
at a reasonable cost.

HUD Handbook 7460.8, REV-1, chapter 4-35, states that the cost analysis is vital to the housing
authority not only in preparing for negotiations for the award of contracts but also for analyzing
proposed contract modifications (especially change orders), because the lack of competition in
the latter case poses a serious difficulty for the housing authority in ensuring that contractors
only receive reasonable compensation.

The same chapter further specifies that a cost analysis is required when the housing authority is
negotiating a modification (including change orders) to any contract which changes the scope of
work previously authorized and substantially impacts the price or estimated cost, upwards or
downwards. The housing authority must request a cost breakdown of the contract’s proposed
cost. Note: Modifications which change the work beyond the scope of the contract must be
justified as a noncompetitive action per 24 CFR 85.36 (d)(4). If none of those conditions
applies, the work must be procured competitively.

Requirements for Contract Administration

Regulations in 24 CFR 85.36 (b)(2) and the Authority’s procurement policy, section VII, require
the Authority to maintain a contract administration system which ensures that contractors




                                                34
perform in accordance with the terms, conditions, and specifications of their contracts or
purchase orders.

Moving-to-Work Agreement

HUD and the Authority entered into a Moving-to-Work Agreement on March 31, 2004, with the
following proposed changes to the Authority’s procurement requirements:

•      The Authority may utilize qualification-based procurement as described in 24 CFR
85.36(d)(3)(v) for construction contracts and other procurement of services where the Authority
deems said system the most suitable.

•       The Authority may utilize an alternative system of procurement, subject to the following
certifications by the Authority in relation to each transaction:

a)      The contract price is reasonable for the goods, services, or property, which is the subject
of the contract.
b)      The selected contractor is qualified to perform the terms of the contract.
c)      No individual member, officer, or employee of the Authority by through or under whose
supervision (in whole or in part) the contract was offered and awarded, shall derive personal
financial benefit from nor hold any beneficial interest, direct or indirect, in the contract.
d)      Reasonable efforts to procure competitive prices and services were made.

• The Authority is authorized to self-certify those procurements listed in Chapter 11, 1.A.1. Items
(a) through (h), of the Procurement Handbook for Public Housing Agencies, 7460.8 REV-1, that
would otherwise require HUD’s formal prior approval.

Good Cause Justification for self-certification for procurements that normally require HUD’s
formal prior approval states that

           As the Authority will self-certify that it has complied with existing HUD or moving
           to work authorized procurement, any action taken by the Authority related to these
           eight instances would be fully justified and documented. As a result of this waiver,
           the Authority will demonstrate that through the use of this streamlined contracting
           process, work will be completed quicker, at a reasonable cost and within governing
           procurement policies.

Handbook Requirements Waived by Moving-to-Work Agreement

The Authority’s Moving-to-Work Agreement waived the section in HUD Handbook 7460.8,
Chapter 11, Paragraph 1.A.1, which requires HUD’s formal prior approval for the following
eight items:

a)     Solicitations and contracts by the housing authority whose procurement procedures or
operation fails to comply with the procurement standards in 24 CFR 85.36(b), 24 CFR
85.36(g)(2)(i)


                                                35
b)      Noncompetitive procurements expected to exceed $100,000, including any procurements
in which only one bid or proposal is received in response to solicitation, 24 CFR 85.36(g)(2)(ii)
c)      Brand name only procurements expected to exceed $100,000, 24 CFR 85.36(g)(2)(iii)
d)      Awards over $100,000 to other than the apparent low bidder under a sealed bid
procurement, 24 CFR 85.36(g)(2)(iv)
e)      Proposed contract modifications changing the scope of a contract or increasing the
contract amount by more than $100,000, 24 CFR 85.36(g)(2)(v)
f)      Contracts for services whose initial period exceeds two years, and any option, extension,
or renewal of a contract for services which makes the total length of the contract, as modified,
exceed two years
g)      Procurements for legal or other services in connection with litigation
h)      Procurements which exceed the amount included in the HUD-approved Development
Cost Budget or Operating Budget, or exceed the HUD-established threshold for revisions to the
CIAP Budget or to the CGP Annual Statement, where HUD has issued a notice of deficiency or
corrective action order in this functional area.

Office of General Counsel Legal Opinion

We obtained a legal opinion from HUD’s Office of General Counsel to determine whether the
Authority’s participation in the Moving to Work program affected the applicability of existing
procurement requirements. HUD’s Office of General Counsel reassured us that, under the
Moving to Work Agreement, procurement requirements established in 24 CFR 85.36, HUD
Handbook 7480.8 REV-1, and the Authority’s procurement policies and procedures remain
applicable. The only exception is that the Authority has the benefit of self-certification for eight
specific items (listed above), in which the handbook normally requires prior HUD approval.




                                                 36
